<html>
<title> - HEARING ON H.R. 3705, A BILL TO PROVIDE FOR THE SALE OF CERTAIN PUBLIC LANDS IN THE IVANPAH VALLEY, NEVADA, TO THE CLARK COUNTY DEPARTMENT OF AVIATION</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
HEARING ON H.R. 3705, A BILL TO PROVIDE FOR THE SALE OF CERTAIN PUBLIC 
LANDS IN THE IVANPAH VALLEY, NEVADA, TO THE CLARK COUNTY DEPARTMENT OF 
                                AVIATION

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                     JUNE 23, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-91

                               __________

           Printed for the use of the Committee on Resources

                               ----------

                     U.S. GOVERNMENT PRINTING OFFICE
49-652 cc                    WASHINGTON : 1998




                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho
                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                                     LLOYD DOGGETT, Texas
                        Allen Freemyer, Counsel
                     Todd Hull, Professional Staff
                    Liz Birnbaum, Democratic Counsel
                   Gary Griffith, Professional Staff





                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held June 23, 1998.......................................     1

Statements of Members:
    Ensign, Hon. John E., a Representative in Congress from the 
      State of Nevada............................................     3
        Prepared statement of....................................     5
        Additional material submitted by.........................     4
    Faleomavaega, Hon. Eni F.H., a Delegate in Congress from 
      American Samoa.............................................     1
    Gibbons, Hon. James, a Representative in Congress from the 
      State of Nevada............................................    11
        Prepared statement of....................................    11
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
    Reid, Hon. Harry, a Senator in Congress from the State of 
      Nevada, prepared statement of..............................    27

Statements of witnesses:
    Culp, Pete, Assistant Director, Minerals, Realty and Resource 
      Protection, Bureau of Land Management......................     2
        Prepared statement of....................................    23
    Walker, Randall H., Director, Department of Aviation, Clark 
      County, Nevada.............................................     5
        Prepared statement of....................................    24

Additional material supplied:
    Innes, Charlotte, Los Angeles, California, prepared statement 
      of.........................................................    26
    The Wilderness Society, prepared statement of................    26





HEARING ON H.R. 3705, A BILL TO PROVIDE FOR THE SALE OF CERTAIN PUBLIC 
LANDS IN THE IVANPAH VALLEY, NEVADA, TO THE CLARK COUNTY DEPARTMENT OF 
                                AVIATION

                              ----------                              


                         TUESDAY, JUNE 23, 1998

        House of Representatives, Subcommittee on National 
            Parks and Public Lands,Committee on Resources, 
            Washington, DC.
    The Subcommittee met, pursuant to other business, at 10:10 
a.m., in room 1324, Longworth House Office Building, Hon. James 
Hansen (chairman of the subcommittee) presiding.

 STATEMENT OF HON. JAMES HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. [presiding] Now, we will proceed to hear H.R. 
3705.
    H.R. 3705, introduced by Congressman Jim Gibbons of Nevada, 
would provide for the sale of certain public lands in Ivanpah 
Valley, Nevada to the Clark County Department of Aviation. This 
land, approximately 6,395 BLM acres, would eventually become a 
new airport facility and surrounding infrastructure. The Las 
Vegas Valley is the one of the fastest-growing metropolitan 
areas in the country. About 50 percent of the annual visitors 
to Las Vegas fly to McCarran Airport. This ratio is expected to 
rise even further as Vegas increasingly becomes an 
international travel destination. McCarran Airport is quickly 
reaching capacity.
    The new airport facility is needed in the Las Vegas area. 
There are several reasons that the Ivanpah Valley is an ideal 
place for this airport. The area is far enough away from 
McCarran Airport and the Nellis Air Force Base to avoid 
airspace capacity restraints, and yet it's close enough to 
serve the metropolitan area. The area is right next to the I-15 
and the Union Pacific Railroad, providing good transportation 
connections. And, finally, there are minimal environmental 
problems with the site.
    I understand that the administration has a few concerns 
with this legislation, but recognize the need for a new 
airport, and are willing to work with us to make this happen. I 
appreciate that and look forward to working with the 
administration. I now recognize the gentleman from America 
Samoa.

STATEMENT OF HON. ENI F.H. FALEOMAVAEGA, A DELEGATE IN CONGRESS 
                      FROM AMERICAN SAMOA

    Mr. Faleomavaega. Mr. Chairman, H.R. 3705 provides for the 
conveyance of certain public lands in Nevada to the Clark 
County Department of Aviation for use as an airport and related 
commercial development. I understand that the Bureau of Land 
Management will testify that they have a number of concerns 
with the bill as currently written. Evidently, there are 
several land use conflicts with the proposed airport location. 
These conflicts include mining claims, grazing, utility 
corridors, a designated special recreation management area, and 
a desert tortoise translocation area. I also understand there 
are the questions in the math of determination of fair market 
value and with the authority.
    Mr. Chairman, the questions on H.R. 3705 need to be 
resolved. I appreciate the presence of our witnesses today and 
look forward to their insight on this proposed legislation.
    Mr. Hansen. According to my watch, there's 1 minute and 20 
seconds, and then we'll hear from Mr. Jim Gibbons; that is if 
he's very punctual. If he isn't, we'll go to our witnesses. I 
appreciate you gentlemen for coming up to the table.
    [Pause.]
    Time has expired. With that in mind, we will turn to our 
witnesses: Mr. Pete Culp, Assistant Director, Minerals, Realty 
and Resource Protection at the Bureau of Land Management and 
Mr. Randall H. Walker, director at the Department of Aviation, 
Clark County, Nevada. Mr. Culp.

 STATEMENT OF PETE CULP, ASSISTANT DIRECTOR, MINERALS, REALTY 
       AND RESOURCE PROTECTION, BUREAU OF LAND MANAGEMENT

    Mr. Culp. Thank you, Mr. Chairman. I appreciate the 
opportunity to testify on H.R. 3705, the Ivanpah Valley Airport 
Public Lands Transfer Act that provides for the transfer of 
certain public lands to Clark County, Nevada to the Clark 
County Department of Aviation. As you indicated in the 
introductory statement, the concept of a new airport in this 
location certainly appears to have merit and there certainly 
appears to be a need for a facility like this.
    Also, as you indicated, we do have some concerns with the 
bill as presently drafted. H.R. 3705 provides for the 
conveyance of lands from Jean, Nevada to the Clark County 
Department of Aviation over a period of 20 years. The lands are 
to be used for an airport facility and associated industrial 
and commercial development. Lands would actually be conveyed 
under the bill over this 20-year period of time on an as needed 
basis to the Department of Aviation, but as the bill is written 
that would be based on a market value to be established by an 
appraisal to be conducted within 6 months of the passage of the 
legislation. The lands will be withdrawn from entry under the 
mining laws.
    Very quickly, our concerns relate to conflicts that will be 
created with certain existing land use in the general area. 
There are a variety of third party rights. For example, one 
section is encumbered by mining claims; the entire area is 
within a grazing allotment; there are two State of Nevada 
mineral material sale sites for gravel, and there's some major 
power lines through the site.
    The issue of desert tortoise habitat that was mentioned is 
very much dependent on a precise location of the airport. There 
is an area west of Interstate 15 that is a translocationsite 
for tortoise that are affected by developments elsewhere in 
Clark County. The most recent map which is actually an aerial 
photograph that we've seen of the proposed airport site would 
avoid that area and thus minimize the impact to tortoise. The 
earlier maps showed part of the property west of Interstate 15.
    The area has a special recreation management area for off-
road vehicle activities between Primm and Jean that would need 
to be relocated. There's presumably an issue of at least dust 
that would be created by that type of existing use that might 
interfere with airport operations. And the area is currently 
used for sky diving which I understand is out of the small 
airport at Jean which would be also impacted.
    Another concern is the conveyance of lands at less than 
fair market value. Very quickly, the issue there is that the 
appraisal would be done within 6 months of passage of the bill, 
but the actual conveyances could extend out for a period of 20 
years during which land values could change significantly. I'll 
say quickly, that we recognize that some of that change would 
be attributable to the development of the airport itself, but I 
believe there are some solutions to that issue that could be 
worked out.
    And, significantly, I mentioned that there have been 
several maps provided to us of the facilities, or the proposed 
facility. There is a recent court date that's referenced in my 
longer statement that makes the issue of a map very 
problematic. We need an officially filed map with clear 
delineation of the boundaries.
    But, in summary, I believe these issues are amenable to 
some work and resolution between the Subcommittee, BLM, and 
Clark County, and we can work together to mitigate or resolve 
the issues and come to agreement on a suitable location, 
boundaries, and provisions. That concludes my testimony, and 
I'll be happy to answer any questions.
    [The prepared statement of Mr. Culp may be found at end of 
hearing.]
    Mr. Hansen. Thank you.
    The gentleman from Nevada, Mr. Ensign, do you have an 
opening statement you would like to make regarding your 
colleague's bill, Mr. Gibbons?

STATEMENT OF HON. JOHN E. ENSIGN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Ensign. Thank you, Mr. Chairman; yes, I do. I'll make 
it brief and just ask unanimous consent that my whole statement 
be made part of the record.
    Mr. Hansen. So ordered.
    Mr. Ensign. I'd like to make just a couple of comments. 
First of all, this is my colleague Jim Gibbon's bill, and it is 
something, though, that the entire congressional delegation 
from the State of Nevada. This is brought to us by Clark County 
and McCarran Airport. They would like to see as a reliever 
airport as well as, obviously, to bring in freight and cargo 
from other parts of the world into this area for several 
reasons as a reliever airport to McCarran International 
Airport.
    First of all, this is one of the fastest growing airports 
in the world, and it is quickly reaching capacity, and as a 
reliever airport, this Ivanpah Valley is a perfect location 
because there's very little, as far as environmental, concerns, 
because you're talking, first of all, outside of the air 
district--I guess you would call it--for the Las Vegas Valley. 
This is on the other side of the mountains from the Las Vegas 
Valley, and so many of the environmental concerns are quite a 
bit less than with this airport out in the Ivanpah Valley.
    A couple of the other points that I would like to make that 
the BLM brought up. First of all, as far as the grazing rights 
are concerned that are on the land, the grazing, from what I 
understand, are controlled--they're owned by the county itself, 
so I don't think that the grazing rights are a major concern 
with this land. Second of all, I do have something I'd like to 
make part of the record: it's a letter from the Department of 
Transportation. The BLM talked about that the Department of 
Transportation has some mineral rights in there for a gravel 
pit, and we have a letter here from the Assistant Director of 
Planning, Thomas Fronapfel, and he says, ``We have reviewed the 
notice the landing area proposed, and this proposal does not 
appear to conflict with Department facilities or projects.'' 
And then it says, ``Should you have any questions,'' I'd like 
to have this made part of the record, because they're fine with 
the bill.
    Mr. Hansen. Without objection.
    [The information referred to follows:]

          Letter from Mr. Thomas J. Fronapfel to John Pfeifer

                           Dept. of Transportation,
                                               Carson City,
                                                     Nevada
John Pfeifer,
Manager,
831 Mitten Road, Room 210,
Burlingame,
California.
    Dear Mr. Pfeifer:
    We have reviewed the Notice of Landing Area Proposal Ivanpah Valley 
Airport, 97-SFO-97-NRA. This proposal does not appear to conflict with 
Department facilities or projects.
    Should you have any questions, please contact the office of 
Aviation Planning at (702) 888-7464.
            Sincerely,
                                 Thomas J. Fronapfel, P.E.,
                                      Assistant Director--Planning.

    Mr. Ensign. The second thing is--and I'm glad that you 
recognize as far as the desert tortoise habitat that it is on 
the other side. The translocation area is on the other side of 
I-15, and I think that working--we can make sure that the 
details are worked out to make sure that we do have, obviously, 
the desert tortoise and the habitat for that is very important 
to all residents of Clark County, and we want to make sure that 
nothing gets in that way, but, from what I understand, this 
bill, as written now, the current form it, will not have any 
problems with the desert tortoise because of the translocation 
area being on the other side of the freeway.
    And, last, let me just say that I think that this bill has 
been very well thought out from all of the members of the 
delegation supporting it, and this isn't really something that 
was driven by the delegation. This was something that driven by 
local people coming to us and asking us to support this, and 
similar to the Ensign-Bryan lands bill that we brought through 
this Subcommittee, when you have local input, you usually get 
good legislation, and that's exactly what we've received here, 
and I want to thank you, Mr. Chairman, for having this hearing 
on Mr. Gibbon's bill.
    [The prepared statement of Mr. Ensign follows:]

Statement of Hon. John E. Ensign, a Representative in Congress from the 
                            State of Nevada

    Good morning, Chairman Hansen and other colleagues, it is a 
pleasure to be with you today in addressing a very important 
issue to the people of Nevada. H.R. 3705, introduced by 
Congressman Jim Gibbons and myself provides for the sale of 
certain public lands within the Ivanpah Valley, Nevada to the 
Clark County Department of Aviation.
    Today, the Las Vegas Valley is the fastest growing 
metropolitian area in the country with about 5,000 people move 
there each month, and millions of visitors each year. About 50 
percent of these visitors arrive by way of McCarran 
International Airport. As the valley continues to expand, and 
the number of international visitors climbs, it becomes 
apparent that McCarran Field is nearing its capacity.
    H.R. 3705 would designate approximately 6,500 acres of BLM 
land for gradual sale to the Clark County Department of 
Aviation, some of the land will become a secondary airport 
serving the needs of both passengers and cargo for the Las 
Vegas metropolitan area, and the rest of the land would be used 
to provide surrounding infrastructure and for other industrial 
purposes.
    The Ivanpah Valley location is ideal for many reasons. 
First, it is convenient to Las Vegas, but far enough away as 
not to pose a problem to current air traffic patterns with 
McCarran Field and Nellis Air Force Base. Second, the location 
has the best topography and orientation of any of the possible 
sights for an ancillary airport facility, and it is accessible 
to both I-15 and the Union Pacific railroad. And finally, there 
are minimal environmental concerns with this proposed sight.
    H.R. 3705 provides relief to the growth issue that faces 
the Las Vegas Valley, it allievates overcrowding at McCarran 
Field while supporting the economy of Southern Nevada with new 
jobs and additional revenues.
----------
Mr. Chairman, I would like to take this opportunity to make the 
public aware of my relationship with Circus Circus Enterprises. 
As we all know, the legislation before us today proposes the 
sale of federally owned land to the Clark County Department of 
Aviation for the development of a reliever airport in the 
Ivanpah Valley. The location of this airport will be roughly 
six miles from Jean, Nevada where Circus Circus Enterprises 
owns and operates two hotel-casinos. My father, Michael Ensign, 
is Chief Executive Officer of Circus Circus Enterprises.

    Mr. Hansen. Thank you, Mr. Ensign.
    Mr. Walker, we'll turn to you.

    STATEMENT OF RANDALL H. WALKER, DIRECTOR, DEPARTMENT OF 
                 AVIATION, CLARK COUNTY, NEVADA

    Mr. Walker. Thank you, Mr. Chairman. My name is Randall 
Walker. I am the Director of Aviation for the Clark County 
Department of Aviation----
    Mr. Hansen. Pull that mike just a tad closer to you, 
please, sir. Thank you.
    Mr. Walker. [continuing] in Las Vegas, Nevada. I appear 
today to testify in strong support of H.R. 3705 which 
authorizes the Secretary of the Interior to convey for fair 
market value certain lands in the Ivanpah Valley to the Clark 
County Department of Aviation to allow us a site for future 
construction of an airport to serve southern Nevada.
    The role of an airport in any community is to provide the 
airport infrastructure and facilities necessary to enable any 
and all carriers to serve the community if they choose to do 
so. Because Las Vegas has been one of the fastest growing 
airports in the Nation, keeping pace with airline passenger 
demand has been a significant challenge. McCarran International 
Airport passenger traffic since 1990 has grown 64 percent. Half 
the visitors who come to Las Vegas now come by air. Air traffic 
into Las Vegas has statistically followed the growth of the 
hotel industry and the construction of hotel rooms. Before the 
year 2000, Las Vegas will add approximately 20,000 hotel rooms 
to the inventory. We estimate that every 1,000 hotel rooms will 
generate about 275,000 visitors or with the 20,000 hotel rooms, 
approximately 6 million new tourists, half of whom will pass 
through the McCarran to get into Las Vegas.
    Fifty years ago, in 1948, Clark County acquired McCarran 
Field on South Las Vegas Boulevard. This once small air field 
out in the desert is now surrounded by a vibrant and unique 
city. We are proud of the facilities we have constructed on 
McCarran Airport and with the opening of the new D terminal 
this last week, we will provide sufficient facilities to carry 
us approximately 5 years into the future. But after the fades 
and D gate is completed, we will not have realistic expansion 
opportunities to add additional terminal facilities at our 
airport.
    We now have four air carrier-capable runways at McCarran, 
and that is all that we will ever be able to build. 
Fortunately, with our existing runways there is sufficient air 
field capacity to allow for additional short and mid-term 
growth. However, once that growth gets above 600,000 annual 
aircraft operations--we're currently at 474,000 annual 
operations--our runway taxiway system will produce cumulative 
delays that exceed an average of 40 minutes per aircraft 
operation.
    It is easy to understand why the airlines who service the 
Las Vegas are very sensitive to the incremental system cost 
which results from departure and arrival delays. Increasing 
delays means higher operational costs attributable to wasted 
fuel burned on the taxiway; added crew time and additional 
delays at connecting airports. As the operator of McCarran 
Airport, we have to be sensitive to delay costs that make it 
difficult for airlines to add additional service or to maintain 
the existing service that they already provide.
    For us to maintain the viability of long-term airline 
service to Las Vegas, we need to find an alternative primary 
commercial service airport to McCarran. Most of the airspace 
north of McCarran is under the control of the Department of 
Defense due to the ever-increasing military operations at 
Nellis Air Force Base. This has limited our search for new 
sites to south of Las Vegas. The only viable site that has 
adequate airspace is about 22 miles south of McCarran in the 
Ivanpah Valley.
    Ivanpah Valley is the only site that will allow for a full 
precision instrument approach that will not result in airspace 
conflicts with the traffic at McCarran. This site, with the 
potential for a north-south conflux of parallel runways, is 
unusual because it is both flat and devoid of mountainous 
terrains off the ends of the future runways. It is also located 
in close proximity to Interstate 15 and Uni-Pacific Railroad 
which will enhance intermobile transportation of cargo 
opportunities.
    It is our plan to develop this airport as needed by the 
growth at McCarran. It is likely that the first developments to 
move this new airport would be cargo and charter operations 
with scheduled airline service eventually following as traffic 
continues to grow at McCarran. Notwithstanding the opportunity 
for us to obtain Federal land for free under section 505 of the 
Airport and Airways Improvement Act, there is a significant 
bureaucratic process involved that would take years to 
complete.
    Now, Mr. Chairman and members of the Committee, we are very 
anxious to secure this site so that we can do the necessary 
planning and environmental work, and we are willing to pay fair 
market value for the land which is just a bit over 6,000 acres. 
This new airport is absolutely critical for the Clark County 
Department of Aviation to fulfill its mission of never allowing 
the lack of airport infrastructure to be an impediment to 
people coming to Las Vegas; to the Grand Canyon, and to other 
destinations in the color country around Las Vegas.
    Mr. Chairman, thank you for the opportunity to discuss this 
important issue, and I'd be glad to answer any questions the 
Committee may have.
    [The prepared statement of Mr. Walker may be found at end 
of hearing.]
    Mr. Hansen. Thank you, Mr. Walker. Questions from the 
panel? Mr. Faleomavaega is recognized for 5 minutes.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I'd like to ask 
Mr. Culp from the Bureau of Land Management a couple of 
questions. How many tortoise are we talking about here?
    Mr. Culp. How many tortoise?
    Mr. Faleomavaega. Yes.
    Mr. Culp. I saw the figures for the number relocated to 
that relocation area west of Interstate 15, and I believe it 
was 1,200. Again, as I noted and Mr. Hansen noted, the last map 
which was actually an aerial photograph that we received would 
avoid the tortoise relocation area.
    Mr. Faleomavaega. I notice in your statement you mention 
that you don't even have a map. Am I correct the State of 
Nevada has not even submitted a map formation of this Valley? 
They're asking for about 6,000 acres, and I understand the 
location is about 22 miles south of the McCarran Airport? Is 
this under the Bureau of Land Management jurisdiction?
    Mr. Culp. The area is public land under our jurisdiction 
now, yes. And the concern on the map is that actually we have 
several maps that are fairly large scale. I believe two maps 
and one aerial photograph with boundaries delineated. The 
boundaries are somewhat different between those maps, and both 
we and the Congress would need a definitive map filed with us 
to move forward and avoid some future legal problems.
    Mr. Faleomavaega. I notice you cited at least about 10 
different areas that you question. I would like to ask Mr. 
Walker, I'm sure our good friend from Nevada would not have 
introduced this legislation if there was at least some 
preliminary discussions or dialogue between the BLM and the 
State of Nevada, and, Mr. Walker, I'm sure you're well aware of 
some of the considerations that BLM is raising now before the 
Subcommittee. I gather that this bill was introduced without 
the knowledge of BLM in any way or form?
    Mr. Walker. No, that's not correct. We've had extensive 
conversations with our local BLM offices. I met with Mr. Pat 
Shay personally to indicate that we were going to introduce the 
bill; to give him a copy; I gave him a map myself. And, so 
we've tried to make sure that we've covered all our bases and 
done our homework and consulted with everybody that we felt it 
was important to consult with before the bill was introduced.
    Mr. Faleomavaega. So, you've done all this with the office 
of the BLM in Nevada, but, apparently, it has not reached 
Washington. Is this correct, Mr. Culp?
    Mr. Culp. No, it's reached Washington, and there certainly 
have been consultations in Nevada. I think our position is that 
because of some of the issues that I mentioned and the lack of 
a really definitive map, that there's more work that we need to 
do together.
    Mr. Faleomavaega. Well, Mr. Culp, I'm a little surprised, 
and I'm sure that Mr. Walker would not have made these 
considerations, and I wanted to ask you, you're suggesting here 
also that BLM and the FAA be given time to consider what would 
be the most appropriate area, and I'd like to ask you if the 
BLM and the FAA would be assigned the task of figuring out a 
location or size for an additional airport in Nevada, how long 
do you think this will take?
    Mr. Culp. We're prepared to move very quickly on that. I 
can't speak for FAA, but I would say that we recognize that 
Congress has an interest in this bill and may want to move 
quickly, and we are prepared to do that. I think we're talking 
about a matter of a few weeks probably.
    Mr. Faleomavaega. I'd like to ask Mr. Walker, how long have 
you been holding consultations with the BLM office in Nevada?
    Mr. Walker. I think we've been working on this for a couple 
of years.
    Mr. Faleomavaega. My God.
    Mr. Walker. And, as I indicated, we met Mr. Pat Shay, the 
Director of BLM, here in Washington several months ago to give 
him a copy of the bill and a copy of the map which has changed 
slightly since we initially gave that to him, but as far as the 
issues that have been raised by BLM, we're well aware of these 
issues. We don't think any one of them is insurmountable. For 
example--I could go through each one of them--the grazing 
rights, if you've seen the dry lakes, there's not a whole lot 
of foliage there in the first place, and, second, the county 
owns the grazing rights, and this would not be a conflict, and 
grazing around an airport outside the parameter fence is not a 
problem, so there shouldn't be any conflict, and we could go 
through each one of these issues: the power lines, we know 
where they're at, and they're not in conflict with the 
alignment of the runways; the desert tortoise habitat, we have 
a letter from Paul Seltzer, the attorney that has been retained 
by the county to deal with desert tortoise habitat issues, and 
he indicates that it doesn't appear that this is a concern at 
all with the translocation area; the transportationsite--the 
Department of Transportation is there on the west side of the 
freeway, and we've got a letter from them indicating it's not a 
problem; the sky diving operation, that's in an airport we 
manage and control. We understand those issues very well, and 
we would not do anything to jeopardize those operations. We 
need to accommodate all aviation within southern Nevada, and we 
think we do a very good job of doing that.
    In terms of the fair market value, I think we have an 
opportunity--we could go through a bureaucratic process and ask 
for it for free. We're asking to pay current fair market value, 
but that land out there right now, probably the value is very 
limited relative to the rest of the land in southern Nevada, 
and what we don't want to do is to bring all the infrastructure 
in there and create a huge value for land that now has minimal 
value and then turn around and have to pay the higher value 
that we've created for the land. That's why we're asking for it 
the way we are.
    And, so we think that these issues--in terms of the off-
highway vehicle use, for example, that's not an incompatible 
use around an airport, and the dust that would be created by 
those vehicles, certainly, is a lot less than the wind, the 
dust that the wind creates in Las Vegas. We have that all of 
the time, and so that's not a problem.
    Mr. Faleomavaega. Well, Mr. Walker, my time is running out, 
but I would like to give some very strong advice to Mr. Culp 
that this issue has been ongoing and been under discussion for 
years. This is not something that has just came over, over 
night, and so your mentioning of all these areas like the 
grazing, the mining, the tortoise, the special recreation 
management, it seems like you're throwing a smoke screen here 
and not really making a good faith effort to work with the 
State officials that the BLM does show good faith in working 
together with the officials of the State of Nevada. I'm really, 
frankly, disappointed that these issues are brought forth, and 
it sounds like you were never being apprised of this three or 
months ago, but the fact that this has been under discussion 
for years, I'm a little disappointed, Mr. Culp, that the BLM is 
giving the members of this Subcommittee this kind of 
information. I'm sorry, my time is up.
    Mr. Hansen. Thank you. Mr. Walker, Mr. Culp said that Clark 
County is obligated under the terms of a Federal grant to 
continue operations at Jean Airport. I'm assuming that Jean 
Airport is a general aviation airport?
    Mr. Walker. Yes, we created it as a sports aviation 
facility for gliders and aerobatics and things of that nature.
    Mr. Hansen. In the event that this other one went in, what 
would the airspace problem be? Would there be--have overlapping 
traffic patterns? Would we have space that is adequate for both 
of them?
    Mr. Walker. Yes. Jean is about six nautical miles from the 
Ivanpah Valley site. We have a general aviation airport, called 
Henderson Executive Terminal which is six miles from McCarran 
Airport. One is a visual flight rules airport; the other's an 
instrument flight rules, and we developed the airspace so that 
they both operate compatibly.
    Mr. Hansen. What is the altitude of the traffic pattern at 
Jean Airport?
    Mr. Walker. Jean Airport has visual flight rules, so it has 
to stay under the Class B airspace.
    Mr. Hansen. It's all under VFR?
    Mr. Walker. Yes.
    Mr. Hansen. In the event the southern one went in, would 
that necessitate transponders for general aviation at Jean 
Airport?
    Mr. Walker. No.
    Mr. Hansen. Do they have transponders now?
    Mr. Walker. No, not at Jean.
    Mr. Hansen. You don't think it would?
    Mr. Walker. No, I don't believe so. We don't have any----
    Mr. Hansen. Would you mind giving me some stuff on the FAA 
about that?
    Mr. Walker. We don't have any instrument approaches now at 
Henderson or North Las Vegas.
    Mr. Hansen. The reason I say that is Salt Lake--where I've 
spent many hours flying--we all had to put transponders in when 
Salt Lake International got a little bigger. So, Sky Park, 
which is between Ogden and Salt Lake; Airport No. 2, which is 
south of International, and the others, all of those, had to go 
to transponders which is, frankly, a pain.
    Mr. Walker. Well, we have very good weather in Las Vegas. I 
think we have 360 days a year where you can operate under VFR 
rules, and so it's not a real problem for our airports. The 
only time we have--McCarran is the only place now where they 
can do actual instrument landing training, and so we're trying 
to find a location at one of our sites where we could have, 
actually, a transponder site for general aviation to improve 
the--to, basically, move those operations off of McCarran. But 
we're working now with the FAA, with the local tower and the 
regional people, and the military. We have a committee that's 
looking at all of the airspace in southern Nevada to come up 
with the best airspace possible, and the Ivanpah Valley is one 
of the issues that's on the table. So, we're working with 
everybody to come up with the airspace allocation which serves 
the needs of everybody--the military, the general aviation, and 
the commercial aircraft.
    Mr. Hansen. Would Jean Airport have to change their 
practice area which is allocated to them by the FAA?
    Mr. Walker. In terms of the sky divers, there may have to 
be a reallocation of where their jumps are. We just reallocated 
them from the northwest, because they used to operate out of 
north Las Vegas, but because of the significant development in 
the northwest which was precipitated by land exchanges by the 
BLM, we had to move the sky divers to another area. They're 
very important to us, and we will find them a location to 
operate somewhere. We have 8,000 square miles of land in 
southern Nevada, 82 percent which is owned by the Federal 
Government. Certainly, there is a site close to Jean where the 
sky divers can practice their trade in southern Nevada.
    Mr. Hansen. Mr. Culp, you gave a laudatory reason why the 
BLM has difficulty with this. You said that there's historical 
off-highway vehicle use. Now, I commend you for this, but I'm 
just kind of curious in a way, you're defending off-highway 
vehicle use on public lands in this bill, however, over in the 
State of Utah--your next door neighbor there--you folks are 
trying to stop it. Why the inconsistency?
    Mr. Culp. Mr. Chairman, we go through a planning process 
for each area to determine where that kind of use is compatible 
with the resource values in the area--I am not immediately 
familiar with the area in Utah that you're speaking about--but 
that's how the process works, and that's how these in Nevada 
were designated as appropriate for off-highway vehicles.
    Mr. Hansen. Frankly, being somewhat familiar between the 
two States, I cannot see much difference. Every place there's 
off-road use in BLM under H.R. 1500, proposed by some of our 
environmental friends, BLM has gone with them lock, stock, and 
barrel, and some of that area has been used for off-road 
vehicles for as long as I can remember. So, it would, in my 
opinion, fall under the highway and historical use. Anyway, I 
would really be curious to know the answer to that when you get 
to it.
    Mr. Culp. I'll be happy to look into it.
    Mr. Hansen. Would you, specifically, personally, send me 
something on that?
    Mr. Culp. I certainly will.
    Mr. Hansen. Don't send it here. Send it to my personal 
staff at 2466 Rayburn. I would like to read it.
    I promised earlier that, when the sponsor of the bill 
arrived, that we would turn to him for his opening statement. 
So, honoring that obligation, Mr. Gibbons.

 STATEMENT OF HON. JAMES GIBBONS, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Gibbons. Thank you, Mr. Chairman, and I appreciate your 
kind patience in regard to my tardiness, and I do apologize for 
being late. In order to make this as expedited as possible, I 
would ask unanimous consent to have my opening remarks 
submitted for the record rather than be said.
    Mr. Hansen. Without objection, so ordered.
    [The prepared statement of Mr. Gibbons follows:]

 Statement of Hon. Jim Gibbons, a Representative in Congress from the 
                            State of Nevada

    Mr. Chairman:
    I would like to thank you for allowing this Committee to 
hear H.R. 3705, the Ivanpah Valley Airport Public Lands 
Transfer Act.
    As you may know, Las Vegas, Nevada, is the fastest growing 
area in the United States, and because 87 percent to 92 percent 
of Nevada is owned by the Federal Government, it makes 
expansion for many of our communities almost impossible.
    More than 20,000 new homes were built in the Las Vegas 
Valley last year, and this influx of new residents has put 
great pressure on the infrastructure of the entire region.
    Fortunately, H.R. 3705 addresses the issue of expansion and 
infrastructure and prepares Clark County for the 21st century.
    As Las Vegas continues to grow a greater demand is put on 
its airport.
    Currently, passengers traveling through Las Vegas's 
McCarran Airport account for approximately 50 percent of the 
annual visitors to Las Vegas.
    And as the Valley's resorts increasingly become 
international travel destinations, this percentage can be 
expected to climb putting a burdensome strain on McCarran 
airport.
    That is why this legislation is so important to the Las 
Vegas Valley.
    The new Ivanpah Valley Airport will attract air cargo 
flights that now wish to use McCarran, thus freeing-up 
McCarran's airspace and runway capacity.
    The new airport will also serve as an alternative for 
charter flight operations, where the passengers can be bused to 
downtown Las Vegas in a short amount of time.
    Likewise, the geographical location for this airport is 
also well suited.
    The proposed Ivanpah Valley Airport site is located on 
approximately 6,650 acres of federally owned land thirty miles 
south of the Las Vegas metropolitan area.
    Ivanpah will be far enough away from McCarran Airport and 
Nellis Air Force Base to be free of flight restrictions.
    It has a close proximity to Interstate Highway 15 and the 
Union Pacific Railroad which will provide excellent intermodal 
and multimodal opportunities for passenger and air cargo 
activities.
    And lastly, it is surrounded by vacant Federal land which 
will give Clark County an opportunity to protect the Airport 
from incompatible land uses.
    As McCarran reaches its practical capacity, H.R. 3705 
becomes necessary to accommodate the growing Las Vegas Valley 
and its air passenger and air cargo industry.
    With that Mr. Chairman, I would once again like to thank 
you for holding this hearing on the Ivanpah Valley Airport 
Public Lands Transfer Act, a bill that is very important to 
Southern Nevada and its future.

    Mr. Gibbons. Mr. Chairman, I would appreciate the 
opportunity to exercise a question here of the panel if it's 
within your will.
    Mr. Hansen. The gentleman is recognized.
    Mr. Gibbons. Thank you. I wanted to address the issue of 
mining claims to Mr. Culp. How many of the mining claims that 
you are concerned about are currently active in the area?
    Mr. Culp. I don't have that information, Mr. Gibbons. 
There's one section of the land that has claims on it.
    Mr. Gibbons. Yes, but isn't it true that those mining 
claims are inactive?
    Mr. Culp. I'll be very happy to check that. If that's the 
information you have----
    Mr. Gibbons. Mr. Chairman, I would also wish that this 
Committee accede to your request in submitting, perhaps, 
written questions that they can answer and provide back for us 
detailed explanations and answers to those written questions in 
regard to the mining claim issue.
    With that, Mr. Chairman, I'll yield back the questions and 
have the written question submitted for the record.
    Mr. Hansen. Thank the gentleman from Nevada. The gentleman 
from Minnesota, Mr. Vento.
    Mr. Vento. Thank you, Mr. Chairman. I was going to come by 
and participate in the markup, but I guess you reached some 
accord that we're going to work on it further.
    Mr. Hansen. That's true. We decided it was a work in 
process, and we reported it out without recommendation to the 
Full Committee.
    Mr. Vento. I understand that. Mr. Chairman, Mr. Culp, I 
think that Representative Gibbons is asking whether any of 
these mining claims are patented claims? Or don't you know that 
either?
    Mr. Culp. I don't know that either.
    Mr. Vento. OK. Well, I think that would be sort of a 
telling point, because that means, of course, they've been 
perfected, and there's cost and maybe some value to them.
    Mr. Gibbons. Will the gentleman yield for a second?
    Mr. Vento. Yes, sure.
    Mr. Gibbons. A patented mining claim, of course, is private 
property, and would, therefore, not be under the jurisdiction 
of BLM, because that's the same patent you would get for a fee 
simple----
    Mr. Vento. None of these have been patented----
    Mr. Gibbons. So, that would be the answer to your question 
in that regard, but I appreciate your input.
    Mr. Vento. Well, I just would like to know what the status 
is. I thought, perhaps, if they had reached that point, but I 
didn't know they were distinguishing between claims. Obviously, 
you have to buy them out then, but apparently that won't be 
necessary.
    The overall issue here is, first of all, you suggest in 
your statement you don't know if it's 2,000 or 20,000 acres, 
Mr. Culp. Mr. Walker has said it's 6,000 acres. Since we don't 
have a map we really don't know what specific area that we're 
speaking of here. Is that correct?
    Mr. Culp. We certainly know generally. We've received, as I 
said, two large scale maps and then an aerial photograph with 
the boundaries delineated. They are somewhat different.
    Mr. Vento. Well, I don't understand--I looked at the 
activities that you suggest here that they're roads. Of course, 
I think our colleague from Utah, the chairman, was pointing out 
that there's a special recreation management area that's been 
apparently administratively designated here. I don't know if 
they have any special recreational management areas for off-
road vehicles in Utah or not--but the issue here is what is the 
overall land plan for this area? Is there something that 
fundamentally conflicts with it? I mean, there are conflicts, 
but are these the only conflicts that you have here for the 
land?
    Mr. Culp. We have a recent resource management plan for the 
area that calls for retention in Federal ownership for----
    Mr. Vento. A retention of this particular area.
    Mr. Culp. Correct.
    Mr. Vento. And, so are there other areas that--in Nevada, 
obviously, it's a State where there's 67 or 70 percent 
ownership. I think we shifted even a little more over here 
and----
    Mr. Gibbons. Eighty-seven.
    Mr. Vento. But the--89 percent. Well, we keep gaining more 
of it. But the issue is it isn't like we're an occupying force, 
but sometimes we're treated that way, I guess. The issue is, 
are there some other areas that have been designated for use 
for aviation for future development that are different than 
this site?
    Mr. Culp. None that we have identified. I want to be clear: 
I think that, in general, this area, as Mr. Walker testified, 
may be the best there is. We have to deal with these conflicts 
as best we can.
    Mr. Vento. I'm just wondering if there's some overall plan. 
This hasn't been studied for wilderness, is that correct? Has 
this area been studied for wilderness?
    Mr. Culp. It would have been, certainly. There is no 
wilderness area within the----
    Mr. Vento. It hasn't been studied for it. I mean hasn't BLM 
just gone through a wilderness study on most of the land? Was 
this area studied or not?
    Mr. Culp. We have done studies and reviewed them. I'm sure 
this area was part of that, and we do not have a conflict with 
a designated or--what's the other term for a wilderness--
wilderness review area.
    Mr. Vento. OK. My point is, of course, that it has off-road 
vehicles and some other activities on it that sound like 
they're in conflict, in any case, so it likely wouldn't be--at 
least part of it wouldn't be recommended. I don't know how much 
of that--since you don't have a map, obviously, we'd end up 
with, but you agree now, that it is 6,000 acres not 22,000 or 
20,000. Is that right, Mr. Walker?
    Mr. Walker. Yes, it's never been 20,000 acres. We provided 
a map some time ago to the BLM, and it's always been around 
6,000 acres.
    Mr. Vento. So, when do you expect a sequence--I mean, I 
understand that under law you suggest that this could be 
granted without cost, but you're willing to incur a cost in 
terms of providing certainty, because the amount of money would 
not be great. I mean, what would the cost per acre be here? 
What do you anticipate?
    Mr. Walker. Well, obviously, we'd have to have an appraisal 
through the BLM process, but we anticipate it would be less 
than $1,000 an acre.
    Mr. Vento. Less than $1,000 an acre. And your suggesting 
that that be determined within 6 months and then the cost of 
that be frozen and paid off over a period of 20 years. What is 
the purpose for that? If this airport is going to be developed, 
wouldn't it be developed in the next 5 to 10 years?
    Mr. Walker. Actually, what we would like to do is take 
down--and that's probably where the 2,000 acres came from in 
somebody's discussion. Two thousand acres are what we would 
need initially to develop the airfield itself, and then the 
rest of the land could be drawn down as needed to develop the 
support and the infrastructure around it.
    Mr. Vento. Will that develop the entire complex of housing 
or industrial park of whatever else?
    Mr. Walker. Correct. Right, we'd need cargo facilities and 
other support facilities such as flight kitchens and others 
things that are associated with an airport. If an appraisal 
came in the way we would think it would be based on the land 
values in Las Vegas and whether it's situation in an 
undeveloped area and it, indeed, comes under $1,000 an acre, we 
would probably take the land down in 2 or 3 years, maximum 
time. We're just trying to protect ourselves if it comes in a 
lot higher than that, we would like to be able to take it over 
time. We need to get the land so that we can do the proper 
planning studies; coordinate the airspace with the FAA; do our 
environmental work, and we think it would be appropriate to 
control the site before spend all of our money.
    Mr. Vento. Mr. Chairman, just one more question--I know I'm 
beyond my time here--but the BLM suggests that this ought to be 
part of the regular process of the administrative planning 
process where the BLM and the FAA are the proper forum for 
addressing the county's needs. Has there been such a forum in 
place?
    Mr. Walker. Well, the last plan that we're aware of was 
done 8 years ago, and Las Vegas is such a fast and dynamic 
growing area that we felt it would be best to come and ask 
Congress for this special legislation to allow us to buy this 
land at fair market value for this purpose so that we could 
plan ahead. We've seen what's happened in the last 20 years in 
Las Vegas, and if continues into the next 20 years, if we don't 
do something now, this site will not be available for an 
airport, because there will be too many conflicts developed. 
And so what we're trying to do, as local government, trying to 
be good planners; plan ahead and make sure that we have the 
facilities in place to make sure that the community functions 
for the benefit of its citizens. So, we think this is the right 
process.
    Mr. Vento. Well, are there any reverters or anything in 
this, if this is used for the airport it's one thing, but it 
would obviously be your property, so it could be used for a 
variety of things afterwards.
    Mr. Walker. My understanding is the way the bill's written, 
it would have to be used for airport purposes.
    Mr. Vento. OK.
    Mr. Hansen. The gentleman from Nevada, Mr. Ensign.
    Mr. Ensign. Thank you, Mr. Chairman. Mr. Culp, I just have 
a couple of questions on getting to the mining claim. We have 
mining claims all over Nevada and southern Nevada on BLM land, 
and when we do exchanges we have to deal with these mining 
claims, and we've been able to effectively deal with those 
mining claims. Wouldn't you agree with that?
    Mr. Culp. Yes, yes, I would. I would make a point that, as 
I'm sure you know, mining claims have value whether they've 
been patented or not.
    Mr. Ensign. Right, but we've been able to deal with those.
    Mr. Culp. But we've been able to deal with them.
    Mr. Ensign. Right, and there's nothing out there from what 
we've looked at--I don't know if anything the BLM has looked 
at--that would indicate that there would be any problem dealing 
with the mining claims that we have out there.
    Mr. Culp. No, sir.
    Mr. Ensign. OK. Do you anticipate--looking at this bill, is 
there anything that's a show stopper in there? Is there 
anything that the BLM says, ``No, this is absolutely--we can't 
live with this?'' Is there anything in this bill that BLM 
absolutely can't live with?
    Mr. Culp. I think there are probably three. One is the 
issue of a definitive, officially filed map that can be 
referenced.
    Mr. Ensign. OK, but that could be dealt with.
    Mr. Culp. That can be dealt with.
    Mr. Ensign. OK.
    Mr. Culp. The appraisal issue which I believe also could be 
dealt with could be a show stopper, because, again, if this 
land is taken down over an extended period of time, its value 
regardless of the development of the airport can be expected to 
change and probably change significantly over 20 years.
    Mr. Ensign. Just because I'm pretty familiar with this 
area, why would it change? There's no other private land 
available out there to build any kind of infrastructure to 
increase the value of that. We talked about that in this 
Committee when we were talking about the southern Nevada lands 
bill. Land in the desert--this is no water rights; this is no--
this is as barren of land--as a matter of fact, Mr. Vento, when 
you were talking about this land, if you could see this land, 
this is as barren a land as you can possibly get. Most of it is 
a dry lake bed that--alkali--that nothing grows on, and this 
land is as worthless a land as you can possibly imagine. Why 
would this land increase in value if nothing else is done? If 
the county doesn't do this, take this land down--the BLM is not 
in the business of improving the land to increase the value--
so, if the county government doesn't do this, there's no other 
private land out there, how can you increase the value of this 
land over 20--I don't care if it's 100 years? In other words, 
the only way that this land would be improved in value is if 
the county does something and that what the county is trying to 
do is protect itself. If it increases the value of the land, 
the county itself, it doesn't want to have to pay for that 
increased value because of what it did.
    Mr. Culp. We certainly recognize that point and don't 
believe the county should have to pay for value that it 
creates. Some of the solutions we would suggest is, perhaps, 
using some kind of an index for other land in the area not 
influenced by the development of the airport itself or 
certainly one option would be for the county to take the whole 
area, initially, based on this first appraisal. I can 
understand why they did not----
    Mr. Ensign. Do you understand what they're trying to do 
here. I mean, let's use some common sense here. Let's don't 
think like bureaucracy sometimes thinks. I realize what 
regulations are. They've looked at the regulation; they've 
looked at how all of this thing goes about, and they say that 
they can get the land for free. It would take a long time to do 
it under bureaucratic practices, and so all they're trying to 
do is say, ``You know what? We'll even pay some money. It's 
worth a certain cost. We just want to make sure that cost isn't 
outrageous, so we want to build in some security for us, and 
that security is based on the appraisal, we want to make sure 
we can pay it out over 20 years in case it comes in higher than 
what we expect.'' That's all they're trying to do here. This is 
land they could get, if they went through the slow bureaucratic 
process, for free. So, why would the BLM--this is a common 
sense thing--why would the BLM object to that? I just don't 
understand that?
    Mr. Culp. Again, I think the point is that this is such a 
rapidly developing area that it's----
    Mr. Ensign. Not this area. This area is ever going to be 
rapidly developing. The only land is Stateline and Jean that's 
privately owned. The rest of it is all BLM land; it cannot 
develop.
    Mr. Culp. It wouldn't be developed under the current land 
use plan, that's correct.
    Mr. Ensign. So, how can it rapidly develop? This is 25 
miles from Las Vegas.
    Mr. Culp. I guess what I would like to do is go back 20 
years on some other areas and see what's----
    Mr. Ensign. But there's no water. I mean, there's some 
obvious things here that this land can't be developed. I know 
this area very well. There's no water in this valley to do this 
with, and if you don't have water in the desert, you can't 
develop.
    Mr. Culp. There is--I assume the airport has dealt with 
that issue.
    Mr. Walker. Yes, we've talked to the water district. We 
would have plans to bring water out to the area, it would not 
be inexpensive.
    Mr. Ensign. That's kind of the point is the county has to 
do it.
    Mr. Vento. Well, Mr. Chairman, one other comment----
    Mr. Ensign. Thank you, Mr. Chairman.
    Mr. Hansen. Wait a minute. The gentleman's time has 
expired. The gentleman from Minnesota is recognized.
    Mr. Vento. Mr. Chairman, just one--I think the other issue 
here, of course, is that this is a blocked up Federal area of 
BLM land and how it's managed, and I understand the necessity 
of trying to assist development and especially in a rapidly 
developing area, but the point is that this will influence all 
the land and activities around it, and, of course, you know 
there have been some pretty intense efforts to move water into 
areas. I think what you would anticipate is it does change the 
landscape here and probably the dynamics of what happens with 
the economy and the desire to do some development around that 
airport outside the 6,000 acres which will impact on what 
happens with BLM. So, it's not really your problem, but it is a 
problem, I think, in terms of trying to--the citizens of Nevada 
ought to look, is that what they want? Is this the best policy? 
And, of course, the planning process and review would have an 
opportunity to discuss that, but we're sort of doing--I mean, 
the effort here ends up short circuiting that process.
    Mr. Ensign. If the gentleman would yield.
    Mr. Vento. I'd be happy to yield.
    Mr. Ensign. What we are talking about, what the BLM is 
trying to say, though, is that development in the area could 
increase the value of the land, not what the county is doing 
here with this airport. They're saying other development could 
increase the value of the land. That's why they had this 
problem with the 20 years, but there's nothing that's going to 
develop out there if the county doesn't develop this property, 
and that's what the county is saying.
    Mr. Vento. I am not concerned--I might say, I think there 
should be less concern on our part in the fact that the land 
would be conveyed at no cost for this particular public purpose 
with reverters, so it's going to be conveyed at some cost with, 
apparently, some sort of reverter in terms of how it's used. 
But I think the broader question is not one that necessarily 
you are addressing, but it's one that will face any public land 
manager and that is the adjacent land to this and the whole 
area, because, administratively, it makes it more difficult. Of 
course, we're not in the business here just to make easy for 
land managers. We need to do what's right in terms of providing 
and according the economic and the necessary transportation 
development for the State.
    Mr. Hansen. The gentleman from Minnesota is recognized for 
one comment.
    Mr. Vento. Sure.
    Mr. Hansen. We'll now start another round. Mr. Walker, why 
don't you just do this under section 505 of the Airport and 
Airways Improvement Act?
    Mr. Walker. It would take a long time, and we would like to 
get the land and start our planning process now, and so we 
would prefer to pay what we believe is going to be a reasonable 
value for the land once the appraisal comes in; get the land, 
and avoid that long bureaucratic process that is established to 
obtain that land under that process.
    Mr. Hansen. You would get it free that way.
    Mr. Walker. Yes, but free is not always best when it takes 
a long time.
    Mr. Hansen. I've never seen BLM really move on at a break-
neck speed, you know. They don't exactly--I think that their 
new emblem ought to be the desert tortoise, because that's 
basically how we get things done at the BLM. No disrespect to 
our friends down there; we gave them those laws, but they don't 
exactly move at a great speed.
    Mr. Walker. Well, then you have two Federal bureaucracies 
that we would have to deal with in this as well--the FAA and 
the BLM--and then you just compound that problem, and so we 
feel it's better if the land values come in the way we 
anticipated, we think it's more--actually, probably more cost-
effective for us just to buy the land.
    Mr. Hansen. Oh, I see. Let me direct a question to my 
friend from Nevada, Mr. Gibbons. Mr. Gibbons is a lawyer, a 
geologist, an airline pilot, and a fighter pilot, so I think--
--
    Mr. Gibbons. When I figure out what I want to be when I 
grow up, Mr. Chairman, I'll let you know.
    [Laughter.]
    Mr. Hansen. Pick one, will you? Anyway, out of that, not 
anywhere in your category, but having put a few hundred hours 
at the yoke, Jean Airport, would that be affected substantially 
by putting this one in? In other words, aerospace practice 
areas, transponders, all that kind of stuff.
    Mr. Gibbons. Well, I'm sure, Mr. Chairman, that approach 
corridors would have to be constructed depending upon the 
terrain and other rules that the FAA has in establishing 
certain parameters for approach and departure corridors in a 
busy airport area. It would be my understanding that this would 
be done in concert with the existing Jean Airport so that no 
conflict or impact on Jean would either prevent this airport 
from being constructed or minimizing the importance of Jean 
Airport.
    Mr. Hansen. By any chance, does the gentleman know where 
the Aircraft Owners and Pilots Association is coming from on 
this issue?
    Mr. Gibbons. No.
    Mr. Hansen. Mr. Walker?
    Mr. Walker. I don't believe they've taken a position, to 
our knowledge, on this issue at all.
    Mr. Hansen. I see. The gentleman from America Samoa.
    Mr. Faleomavaega. Thank you, Mr. Chairman. Mr. Walker, I 
wanted to ask a question again. I'm sure that this issue has 
taken the officials of Nevada years to undertake. Have you 
considered any other options beside this valley or this area 
that is located 22 miles south of Las Vegas for airport 
development?
    Mr. Walker. Yes, we hired a consultant to do an analysis 
for us of what are possible locations for a future airport 
site, and this was identified as the best site. Unfortunately, 
for us, depending on how you look at it, fortunately, for other 
uses, we have Nellis Air Force Base and, basically, five miles 
north of McCarran is a wall of airspace for the Department of 
Defense, and so we cannot look in that direction at all. The 
airplanes aren't even allowed to fly into that space. The only 
other place that was looked at was a place called the El Dorado 
Valley which is close to Boulder City which is farther away 
than this site, and that's been recently acquired by Boulder 
City, and they're not interested in having a commercial airport 
over there. Plus, it would be much more difficult with the 
mountainous terrain around it, so--and, plus, it's desert 
tortoise habitat on top of all of that. So, this is the best 
site in terms of terrain; in terms of no conflicts with the 
mountains; in terms of proximity to Las Vegas, and for the 
minimal environmental issues that are attached to this land 
relative to other choices. So, when we weighed all of the 
different potential sites, of which there are not many, this is 
clearly the best site.
    Mr. Faleomavaega. In the process of your consultation, can 
you site exactly approximately when did you first raise this 
issue with the officials of BLM in Nevada?
    Mr. Walker. With the local office, I know we've been 
talking with them, like I said, for a couple of years on this 
issue, and I personally met with Pat Shea, the Director of BLM, 
approximately, I would guess it's been 3 months ago to indicate 
to him that we were going to ask our congressional delegation 
to introduce this bill; provided him a copy of the map, and 
generally explained what the issues were. So, we've been having 
this dialogue for some time.
    Mr. Faleomavaega. Now, as you know, the gentleman, Mr. 
Culp, has testified that no map has been provided to his 
office, and this concerns me as to how extensive your research 
has been in actually giving them a map to work on. Is this 
true? Or this is not?
    Mr. Walker. Well, we haven't provided the map specifically 
to Mr. Culp, but we have provided maps to the local office; to 
the Director; to this Committee. If they would tell me who I 
should provide a map to, I'd be glad to send them one.
    Mr. Faleomavaega. Mr. Culp, I am not putting any blame on 
you for your testimony this morning, but I have to restate my 
other disappointment with your friends at the BLM office in 
Nevada for not giving you the right information about the 
consultations that have been going on with the State officials 
of Nevada about the issues that you've raised here this 
morning.
    You said earlier that it would probably take a couple of 
weeks for the BLM and the FAA to conduct a study or whatever, a 
feasibility, to see what would be the possible area that an 
airport could be developed as expressed by the needs of the 
officials from the State of Nevada. Am I correct in your 
opinion that you can do this in a couple of weeks?
    Mr. Culp. That was my testimony, yes, sir.
    Mr. Faleomavaega. Do you think that you can--this whole 
thing can be done administratively without going through a 
congressional legislation?
    Mr. Culp. No, I believe it does require legislation. I 
would like to add one point, too: the last map that we got was 
last Wednesday after our official testimony was submitted, so 
this really has been a fast moving and changing target which is 
fine, but it's not like we've been dragging our feet.
    Mr. Faleomavaega. OK. I just wanted to make sure, for the 
record, that we're not putting you too much on a tight rope 
here. I wanted--I suppose one of the main issues that we're 
going to--that's going to be very--I wouldn't say controversial 
but certainly one for discussion will be the fair market value 
issue as outlined in the provisions of the bill when it 
addresses that issue, but I just wanted your commitment that 
you say that in a couple of weeks the BLM and the FAA can work 
this thing out with the officials of the State of Nevada?
    Mr. Culp. We're prepared to work with the Subcommittee and 
with the county folks and the State folks very quickly, yes.
    Mr. Faleomavaega. As you know, the entire State--I mean, 
the congressional delegation from Nevada fully supports the 
proposed legislation. What kind of a time table do you think it 
will take for the BLM to come through with its commitments and 
see when we can get this resolved?
    Mr. Culp. If we can sit down quickly together, particularly 
the folks in Nevada, with our State director, Bob Abbey and his 
people, I feel confident that what I said earlier about a 
matter of weeks is something that we can live with. Two weeks 
is kind of tight, but we can work hard at it.
    Mr. Faleomavaega. How about a 4-month period?
    Mr. Culp. That's more than enough, I believe.
    Mr. Faleomavaega. That will resolve the entire issue. Does 
that give you enough leeway to really get this thing moving?
    Mr. Culp. Well, 4 months probably would not for the 
Congress if they want to move this legislation this year.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Hansen. The gentleman from Nevada that sponsored the 
bill, Mr. Gibbons.
    Mr. Gibbons. Thank you, Mr. Chairman. I notice, Mr. Culp, 
that you're saying this is a fast moving and changing target. 
Over the period of the last 3 months, how far has this target 
moved since you were first informed of it?
    Mr. Culp. It's hard to answer that question. I would say 
that we've narrowed down the location which----
    Mr. Gibbons. In terms of--we've narrowed it down in terms 
of what? Miles from where it was originally proposed? What?
    Mr. Culp. Acres, miles.
    Mr. Gibbons. So, they've moved it?
    Mr. Culp. We have--as I mentioned earlier--we have, I 
believe resolved one of the most significant concerns which was 
the potential impact on this desert tortoise relocation area, 
and that's significant progress.
    Mr. Walker. Congressman Gibbons, we originally had a few 
hundred feet to the west of I-15 in the original proposal when 
it came to our attention this was a desert tortoise relocation 
area. We adjusted the map to stay on the east side of I-15 to 
avoid that conflict, and that's, to my knowledge, the only 
change that's happened since we produced the original map.
    Mr. Gibbons. Mr. Walker, you also--your Department of 
Aviation is in control of the Jean Airport, are you not?
    Mr. Walker. That is correct.
    Mr. Gibbons. Do you see any conflict in light of the fact 
that you also have Henderson Airport which is six miles from 
McCarran International that some situation would occur in terms 
of establishing instrument flight rule patterns, departure 
corridors, arrival corridors in McCarran is the same situation 
with Jean, and tell me what you think might be a problem?
    Mr. Walker. Well, we work very well with the FAA and the 
local tower to create the--to develop the airspace around the 
valley that accommodates both commercial aircraft and the 
general aviation aircraft. We've done that at Henderson which 
has a six mile nautical difference between the two airports. 
We've developed the Class B airspace in such a way that the 
airplanes taking off and landing at Henderson could do so by 
staying under the Class B airspace and not create a conflict 
with the commercial aircraft. We believe we can do the same 
thing at Jean. As I indicated before, we now have an ongoing 
study with regional people from Los Angeles, our local tower, 
and the Department of Defense to look at the entire airspace in 
the valley to be able to come up with a long term plan that 
will accommodate all of these issues.
    Mr. Gibbons. Thank you. Mr. Culp, you mentioned the desert 
tortoise issue. Are you aware that the Clark County Desert 
Tortoise Conservation Planning Committee has recently sent a 
letter to our Senators indicating that they see no obvious 
conflict between the proposed airport; the conservation 
measures set forth in the desert conservation plan; the 
critical habitat for the desert tortoise; the desert tortoise 
ACECs, or the desert tortoise translocation areas? Are you 
aware of that?
    Mr. Culp. I have not seen those letters, but I am very 
pleased to hear about that, and I think that probably relates 
to the shift in the location.
    Mr. Gibbons. I'm sure we can get you a copy of that. 
Perhaps, that would help alleviate the Department's concern 
over the desert tortoise issue in this area.
    With those issues resolve, Mr. Culp, do you see any final 
obstacle that would prevent the BLM from supporting the 
transfer of this land?
    Mr. Culp. I think that we have still with us the fair 
market value issue to work out one way or another, and I think 
that's probably the most significant one that's left.
    Mr. Gibbons. And, personally, from my standpoint, I see 
that as probably the least of all obstacles to overcome, 
because we can establish fair market value existing today for 
the property. I don't see a fair market value whether it's 10 
years, 20 years, or 100 years, as being a difficult situation. 
I mean, here we are, the county is paying for its own 
development, and the fair market value--maybe we should ask 
you, for the record, what is your definition of fair market 
value?
    Mr. Culp. We'd be happy to provide that.
    Mr. Gibbons. Does the fair market value issue--you don't 
have a concept today here with you that you could give us?
    Mr. Culp. It would be based on our--as Mr. Walker said--
based on our standard appraisal procedures. The issue really is 
not fair market value today, I don't think. It's the provision 
that allows for the take down of the land over 20 years and the 
changes that would occur.
    Mr. Gibbons. So, what would be your solution to the 
problem, if I may?
    Mr. Culp. There are several possible solutions. One is for 
the county to consider taking the entire property now. Another 
is to include in the legislation some sort of index in the 
provision that would attempt to isolate increases in value due 
to the construction of the airport itself but would allow for 
adjustment of values for future take down.
    Mr. Gibbons. This just seems to me that you want to be the 
beneficiary of the hard work and improvements of the county in 
this area. You want to take advantage of the improved price as 
time goes on. You're not willing to give them the value of the 
land that exists today without the development, because without 
the development your land wouldn't be any higher in value, but 
you want to take advantage of it. I think you're trying to have 
your cake and eat it too. Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. This concludes this hearing. We 
thank our panel for being with us, and we now are adjourned.
    [Whereupon, at 11:14 a.m., the Subcommittee adjourned 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
   Statement of Pete Culp, Assistant Director, Minerals, Realty and 
             Resource Protection, Bureau of Land Management

    Thank you for the opportunity to testify on H.R. 3705, the 
Ivanpah Valley Airport Public Lands Transfer Act, a bill that 
provides for the transfer of certain public lands to the Clark 
County Department of Aviation. Although the concept of an 
airport at this location may have merit, the Bureau of Land 
Management (BLM) can not support H.R. 3705 in its present form.
    H.R. 3705 provides for the conveyance of lands to the Clark 
County Department of Aviation over a period of 20 years. The 
lands are to be used for an airport facility and associated 
industrial and commercial development. The lands are to be 
conveyed over this 20-year period of time on an as needed basis 
to the Department of Aviation. Market value for all conveyances 
are to be based on appraised values determined within 6 months 
of the passage of the legislation. The lands will be withdrawn 
from entry under the mining laws. Although no maps have been 
provided, we understand the lands are located a few miles south 
of Jean, Nevada.
    I would like to discuss the primary concerns that we have 
with H.R. 3705. Our principal concern with the bill is the 
conflict that will be created with current land use in the 
area. In this general area, there are a variety of third-party 
rights and land uses that conflict with the proposed airport 
use. One section of land is encumbered by mining claims, the 
entire area is within a grazing allotment, the Nevada 
Department of Transportation has two mineral material sites for 
acquiring gravel for road maintenance in the area, three major 
power lines and a utility corridor bisect the site, and the 
area is Desert Tortoise habitat. In addition to providing 
tortoise habitat, the lands west of Interstate 15 serve as a 
translocation site for tortoise that are affected by 
development elsewhere in Clark County. This area is a 
historical Off Highway Vehicle (OHV) use area and portions of 
the lands have been designated as a Special Recreation 
Management Area. There are several OHV loop areas between Primm 
and Jean that would be eliminated by this proposal. We assume 
that the airport authority would not desire OHV use near the 
airport due to the dust created. This area is also used for sky 
diving which clearly would be eliminated if a new airport is 
constructed. For all of these reasons, this area is identified 
in the BLM's Stateline Resource Management Plan as lands to be 
retained in Federal ownership.
    Another significant issue is the conveyance of lands at 
less than fair market value. The bill requires the Department 
of Aviation to pay for the lands that are to be conveyed 
piecemeal over a period of twenty years at the market value 
determined immediately after passage of the bill. This means 
that lands being conveyed 15 or 18 years from now will be 
conveyed at a 1998 market value, assuming passage of this bill 
this year. Land values can change significantly over that 
period of time. The bill should be modified to base the values 
of public lands on fair market value at the time of conveyance.
    A third issue of concern is the fact that we do not have a 
map that shows the lands involved. We have only been able to 
review a small map showing the proposed site, but we have 
received nothing official. Not having on file the map referred 
to in Section 2(a) of this bill causes two problems. First an 
unofficial small-scale map is not sufficient to offer the 
Subcommittee a detailed discussion of issues that may exist on 
the ground. The map we have seen shows an area of 32 square 
miles as the airport site. About 2,000 acres are the airport 
and development lands, 4,560 acres are reserved for an 
Industrial Center and 13,830 acres are buffer zone. The lines 
differentiating these areas are not legible but seem to follow 
natural features rather than legal boundaries. As you can see, 
we are not sure if this bill involves the conveyance of the 
2,000 acres identified as airport and development lands or all 
the acres identified amounting to more than 20,000 acres of 
public lands.
    It is also important to note that on March 5, 1998, the 
District Court for the District of Columbia, in its decision in 
Coast Alliance v. Babbitt, essentially nullified section 220 of 
the Omnibus Parks and Public Lands Management Act of 1996, 
because maps referenced in that section were not on file on the 
date of enactment of that Act. We, therefore, believe it is 
essential for the Committee to work with the BLM to develop a 
dated and officially filed map prior to the markup of this 
legislation.
    As the map is developed, we would ask that consideration be 
given to identifying boundaries that follow cadastral survey 
lines in order to allow for conveyances of lands without the 
time and expense of surveys. It is also requested that the 
above identified resource and land use conflicts be avoided in 
preparation of the map if possible.
    Another concern deals with the withdrawal of the public 
lands. The bill withdraws the lands from the mining laws, while 
not affecting the existing mining claims. There is no provision 
for a sunset of the withdrawal at the expiration of the Act or 
at such time as the Department of Aviation declares that all 
the desired lands have been conveyed. As written, this 
provision requires the BLM to go through the time-consuming 
administrative process to terminate the withdrawal.
    Finally, we note that Clark County, as a recipient of 
Federal grants to construct the Jean Airport, a general 
aviation airport that opened two years ago near Ivanpah Valley, 
is obligated by the grant terms to operate and maintain the 
airport for its useful life. The Federal Aviation 
Administration (FAA) informally advises that operations by 
large aircraft at an Ivanpah Valley airport site, as envisioned 
by Clark County, could likely conflict with the general 
aviation activity at Jean.
    The administration believes, however, that the issues that 
I have identified can best be resolved and should be resolved 
in the context of the administrative planning processes of the 
BLM and the FAA. Clark County's efforts to plan for the future 
commercial aviation needs of the Las Vegas metropolitan area 
are commendable. We recognize that initiating the preliminary 
planning now will ensure the county's ability to provide for 
air service for the region in the future and, therefore, stand 
ready to assist the county in every way possible. Nonetheless, 
we strongly believe that administrative planning processes of 
the BLM and the FAA are the proper and desirable forum for 
addressing the county's needs.
    That concludes my testimony. I would be glad to answer any 
questions.
                                ------                                


Statement of Randall H. Walker, Director, Department of Aviation, Clark 
                             County, Nevada

    Mr. Chairman, my name is Randall Walker and I am the 
Director of Aviation for the Clark County Department of 
Aviation in Las Vegas, Nevada. I appear today to testify in 
strong support of H.R. 3705, which authorizes the Secretary of 
the Interior to convey for fair market value, certain lands in 
the Ivanpah valley to the Clark County Department of Aviation 
to allow us a site for the future construction of an airport to 
serve southern Nevada.
    The role of the airport in any community is to provide the 
airport infrastructure and facilities necessary to enable any 
and all air carriers to serve the community if they choose to 
do so. Because Las Vegas has been one of the fastest growing 
airports in the nation, keeping pace with airline passenger 
demand has been a significant challenge. At McCarran 
International Airport, passenger traffic since 1990 has grown 
64 percent.
    Las Vegas is fortunate. We have direct service to over 50 
communities and unlike hub airports, we are not dependent upon 
any single carrier to maintain this level of air service. Our 
airport system consists of Las Vegas McCarran International 
Airport, the tenth largest airport in the United States, the 
North Las Vegas Airport, which is the 47th largest airport in 
the country, the Henderson Executive Airport, an important 
corporate reliever airport for McCarran, the Jean Airport, a 
sport aviation complex, and the Overton and Searchlight 
Airports, two general utility airports in rural parts of Clark 
County. The Department of Aviation operates, as I have 
mentioned several smaller airports in our airport system. The 
development of these smaller airports has allowed aircraft 
operations at our major airport, McCarran, to accommodate 
primarily large air carrier type traffic instead of having our 
limited airfield and airspace available become congested with 
smaller, slower, commuter and general aviation traffic. 
Providing first class small airport airport alternatives to 
McCarran for the smaller, slower aircraft has been crucial to 
our strategy of keeping delays low at McCarran.
    Half the people who come to southern Nevada now come by 
air. Air traffic into Las Vegas has statistically followed the 
construction of hotel rooms. Before the year 2000, Las Vegas 
will add approximately 12,000 more rooms to the inventory. We 
estimate that every thousand new hotel rooms will generate 
275,000 visitors or an annual total of 6 million new tourists, 
half of whom will pass through McCarran.
    Seventy eight years ago when Randall Henderson landed his 
small airplane on a dirt runway, air service to Las Vegas was 
initiated. Fifty years ago in 1948, Clark County acquired 
McCarran field on south Las Vegas Boulevard. Once a small 
airfield out in the desert, McCarran is now surrounded by the 
Las Vegas Strip to the West, the University of Nevada Las Vegas 
to the north, extensive residential, industrial and commercial 
development to the east and by U.S. Interstate 215 and the 
Union Pacific Railroad to the south. We cannot expand beyond 
our present acreage to accommodate the growth we anticipate in 
the years ahead.
    We are proud of the facilities we have constructed at 
McCarran Airport and with the opening of the new ``D'' gates 
terminal last weekend, we will have constructed over $1.5 
billion of new facilities and infrastructure to not only 
accommodate, but to stay significantly ahead of this explosive 
growth. The new ``D'' gates will provide sufficient facilities 
to carry us five years into the future. The ``D'' gates 
terminal is located, however, on one of the last spots of 
aircraft accessible land at McCarran. After the future phases 
of the ``D'' gates are complete, we will not have realistic 
expansion alternatives to add additional terminal facilities at 
the airport.
    We now have four air carrier capable runways at McCarran, 
and due to space constraints, that is all we will ever have 
room for. Fortunately, with our existing four runways, there is 
sufficient airfield capacity to allow for additional short and 
mid term growth. However, once that growth gets above 600,000 
annual aircraft operations, (we are currently at 474,000) our 
runway/taxiway system will produce cumulative delays that 
exceed an average of forty minutes per aircraft operation. 
These estimates have been prepared by the Federal Aviation 
Administration and are contained in the recent report, Capacity 
Enhancement Plan for Las Vegas McCarran International Airport, 
a copy of which I am submitting for the record. Simply put, we 
are running out of room at McCarran Airport.
    I would like to briefly explain a little bit about the 
economics of airline service to Las Vegas. For a number of 
different reasons, Las Vegas is one of the least profitable 
destinations for the scheduled airlines to serve. This is due 
to the fact that most people who fly to Las Vegas plan ahead 
for a vacation or to attend a convention and buy their airplane 
ticket well in advance to secure the lowest fare possible. 
Other passengers come to Las Vegas as part of a comprehensive 
tour package where a tour broker has blocked space with an 
airline and at a hotel for a deep discount. Finally, many 
travelers redeem frequent flier miles to fly themselves or 
their families to Las Vegas at virtually no cost to them and 
thus no revenue for the airlines. With the majority of 
passengers traveling to Las Vegas being either advance purchase 
fares, tour packages or frequent flier redemptions, it is easy 
to see why Las Vegas is a low yield destination for the 
airlines.
    It is easy to understand why the airlines which service Las 
Vegas, are very sensitive to the incremental system costs which 
results from departure and arrival delays. Increasing delays 
mean higher operational costs attributable to wasted fuel 
burned on the taxiways, added crew time and additional delays 
at connecting airports. As the operator of McCarran Airport, we 
have to be sensitive that delay costs could make it difficult 
for airlines to add airline service or to maintain existing 
service levels.
    For us to maintain the viability of long term airline 
service to Las Vegas, we need to find an alternative primary 
commercial service airport to McCarran. We have studied options 
for several years and we have concluded there is only one 
viable alternative airport site. Most of the airspace to the 
north of McCarran is under the control of the Department of 
Defense due to the ever increasing military operations at 
Nellis Air Force Base. This has limited our search to areas 
south of Las Vegas. The only viable site that has adequate 
airspace is about 22 miles south of McCarran in the Ivanpah 
Valley.
    Ivanpah Valley is the only site that will allow for a full 
precision instrument approach that will not result in a severe 
airspace conflict with the air traffic at McCarran. This site, 
with the potential for a north-south complex of parallel 
runways is unusual because it is both flat and devoid of mound 
terrain off the ends of the future runways. It is also located 
in close proximity to Interstate 15 and the Union Pacific 
Railroad which will enhance intermodal transportation and cargo 
opportunities.
    It is our plan to develop this airport as needed by our 
growth at McCarran. It is likely that the first developments to 
move to this new airport would be air cargo and charter 
operations with scheduled air service eventually following as 
traffic continues to increase at McCarran.
    Notwithstanding the opportunity for us to obtain Federal 
land under Section 505 of the Airport and Airways Improvement 
Act for free, there is a significant bureaucratic process 
involved that could take years to complete. Mr. Chairman, we 
are very anxious to secure this site and we are willing to pay 
fair market value for the land, which is just a little bit more 
than 6,000 acres. This new airport is absolutely critical for 
the Clark County Department of Aviation to fulfill its mission 
of never allowing the lack of airport infrastructure to be an 
impediment to people coming to visit Las Vegas, the Grand 
Canyon or other destinations in Color Country.
    Mr. Chairman, thank you for the opportunity to discuss this 
most important issue regarding the future of our air 
transportation system in Clark County. I am available to answer 
any questions you may have.
                                ------                                


                  Statement of The Wilderness Society

    Chairman Hansen:
    Please include this letter in the June 23 hearing record 
for H.R. 3705, The Ivanpah Valley Airport Public Lands Transfer 
Act.
    The Wilderness Society opposes H.R. 3705. We believe this 
bill undercuts existing laws and policies regarding the 
management, protection, and disposal of public lands. In 
addition, the bill will damage important public recreational 
resources, wildlife habitat, and units of the national park and 
wilderness preservation systems.
    As written, H.R. 3705: (1) ignores the existing Federal 
land management plan for public lands in Clark County, (2) 
circumvents the planning process called for in the Federal Land 
Policy and Management Act (FLPMA), (3) prevents adequate public 
review of the land sale and its environmental impacts, and (4) 
fails to provide a fair return to U.S. taxpayers by not 
resuming fair market value for the sale of these lands.
    The proposed legislation would be in direct conflict with 
the existing Bureau of Land Management's Stateline Resource 
Management Plan. That plan, developed with the full 
participation of the public and an appropriate environmental 
review process, determined that the lands identified by H.R. 
3705 should remain in Federal ownership. A number of important 
public benefits and uses of the land, including recreational 
and wildlife habitat, were the basis for this determination.
    Specifically, Section 2 (a) of H.R. 3705 would thwart the 
requirements of Section 202 of FLPMA and require the sale of 
these lands in direct contradiction to the existing management 
plan for the area, without a public participation process to 
review the proposal and without the environmental review that 
would necessarily be included in that process.
    Section 2 (b) of H.R. 3705 would limit the ability of the 
Federal Treasury to obtain fair market value for the sale of 
these lands by restricting the determination of fair market 
value to the six month period after enactment of the law, 
rather than at the time of the sale of the lands. This 
restriction is particularly significant given the 20-year time 
frame envisioned for the sale of these public lands.
    Given the absence of a map, the exact extent and resource 
impact of the proposed land sale is unclear, but at a minimum, 
several square miles of public land which supports recreation 
and wildlife would be turned over for industrial development. 
Development of the proposed airport would not only directly 
impact the lands on which it is sited, but it would also lead 
to significant impacts to the Mojave National Preserve and its 
wilderness areas.
    The Preserve lies directly under the flight paths for 
aircraft that would use the proposed airport. The western most 
runway of the airport would be less than ten miles from the 
boundary of the Mojave National Preserve and flights landing 
and departing would be at their lowest and loudest levels as 
they approached the park. These overflights would destroy the 
area's natural quiet and disturb both visitors and the park's 
wildlife populations.
    The development of an international airport in this area 
would also attract significant interest in development of the 
surrounding lands for commercial purposes. Clearly, this would 
lead to increasing pressure to sell off more public lands to 
provide for the continuing, uncontrolled sprawl that is Las 
Vegas.
    The public lands and resources affected by H.R. 3705 
warrant the careful attention of both the BLM and Congress. 
These lands should not be disposed of without a considered 
public planning process that determines that such disposition 
is in the public's best interest. We believe that H.R. 3705 is 
an ill-advised bill, particularly in light of the time 
limitations which the 105th Congress faces in its waning weeks. 
The Wilderness Society urges Congress to forestall any further 
action on this legislation, and instead to allow the 
administrative planning process--with its emphasis on public 
involvement--an opportunity to address the important issues 
raised by this bill.
    Thank you.
                                ------                                


         Statement of Charlotte Innes, Los Angeles, California

    Dear Congressman Hansen,
    I am writing to ask that my comments below be made a part 
of the public hearing record on H.R. 3705, the bill pertaining 
to the proposed airport in the Ivanpah Valley, Nevada.
    I strenuously object to the building of this airport on a 
site that is less than 20 miles away from one of the most 
beautiful wilderness spots on earth, the Mojave National 
Preserve. Such a facility would fill the sky over this quiet 
spot with the thunder of large, low-flying jets. It would also 
attract commercial and industrial development south of Las 
Vegas (which is just 30 miles north of the site) right into the 
heart of the desert, thus despoiling one of the last great 
desert sanctuaries of the U.S.
    I understand that the proposal calls for the transfer of 
land for the proposed site from the U.S. Bureau of Land 
Management to the Clark County Department of Aviation. I 
strongly urge you to recommend against this transfer!
                                ------                                


 Statement of Hon. Harry Reid, a Senator in Congress from the State of 
                                 Nevada

    Mr. Chairman, I submit testimony to you today in strong 
support of H.R. 3705, which authorizes the Secretary of the 
Interior to convey for fair market value, certain lands in the 
Ivanpah valley to the Clark County Department of Aviation to 
allow us a site for the future construction of an airport to 
serve southern Nevada. As you know I am the principle sponsor 
along with my colleague Senator Bryan of companion legislation 
in the Senate.
    Half the people who come to southern Nevada now come by 
air. Air traffic into Las Vegas has statistically followed the 
construction of hotel rooms. Before the year 2000, Las Vegas 
will add approximately 12,000 more rooms to the inventory. We 
estimate that every thousand new hotel rooms will generate 
275,000 visitors or an annual total of 6 million new tourists, 
half of whom will pass through McCarran.
    Weekend before last I attended the opening of the new ``D'' 
gates terminal. With the completion of this beautiful facility, 
we will have constructed over $1.5 billion of new 
infrastructure to not only accommodate, but to stay 
significantly ahead of the anticipated growth at McCarran. The 
new ``D'' gates will provide sufficient facilities to carry us 
ten years into the future. The ``D'' gates terminal is located 
however on the last spot of aircraft accessible land at 
McCarran. After the future phases of the ``D'' gates are 
complete, we will not be able to add additional terminal 
facilities at the airport.
    We now have four air carrier capable runways at McCarran, 
and due to space constraints, that is all we will ever have 
room for. Fortunately, with our existing four runways, there is 
sufficient airfield capacity to allow for additional short and 
mid term growth. However, once that growth gets above 600,000 
annual aircraft operations, (we are currently at 474,000) our 
runway/taxiway system will produce cumulative delays that 
exceed an average of forty minutes per aircraft operation. 
Simply put, we are running out of room and we need now to set 
aside an area that is acceptable as a new airport site for 
southern Nevada. The Ivanpah Valley is the only site left that 
will accommodate all the needs of such an airport.
    We anticipate a hearing in the Senate on our bill in July 
with the hope and expectation that we can pass this bill before 
the Congress concludes. We should be able to do this because 
the bill is bipartisan and noncontroversial. I am disappointed 
that the BLM witness at today's hearing has taken a position 
opposed to this legislation. I understand however that many of 
the concerns expressed in the BLM testimony are based upon out 
of date or incomplete information about what is being proposed. 
I will be working with BLM to address these issues but in the 
meantime I urge you to move this legislation to markup as soon 
as possible and we will try to keep pace in the Senate, thank 
you.

</pre></body></html>
